            Office of Inspector General




                                    September 26, 2006

                                    TERRY K. ANDERSON
                                    SENIOR PLANT MANAGER, PORTLAND, OREGON,
                                    PROCESSING AND DISTRIBUTION CENTER

                                    SUBJECT:      Management Advisory – Color-Coding of
                                                  Standard Mail at the Portland, Oregon,
                                                  Processing and Distribution Center
                                                  (Report Number NO-MA-06-003)

                                    This report presents the results of our review of color-coding
                                    of Standard Mail® at the Portland, Oregon, Processing and
                                    Distribution Center (P&DC) (Project Number
                                    05YG048NO001). The primary objective of the review was
                                    to determine whether color-coding of Standard Mail
                                    conformed to the U.S. Postal Service’s National Color Code
                                    Policy. This is the first in a series of reviews addressing
                                    P&DC color-coding.

Results in Brief                    The Portland P&DC generally color-coded Standard Mail
                                    according to the Postal Service’s National Color Code
                                    Policy. We noted a few instances where color-coding did
                                    not conform to Postal Service policy or best practices;
                                    however, we did not consider these exceptions significant.

                                    Management agreed with the recommendations and has
                                    already begun implementation. Management stated that
                                    upon approval of color-coding best practices1 by the
                                    Western Area, they will adopt these practices locally.
                                    Additionally, management committed to complete training
                                    by the end of January 2007. Management’s actions, taken
                                    or planned, should correct the issues identified in the
                                    finding. Management’s comments are included in
                                    Appendix B.

1
 Network Operations Management Service Review of the processing facilities in the North Florida Jacksonville
District dated January 2006. Best practices regarding color-coding discussed on pages 14, 35, and 58.
Color-Coding of Standard Mail at the Portland, Oregon,                                                    NO-MA-06-003
 Processing and Distribution Center



Background                          The Postal Service uses a system of color-coding to facilitate
                                    the timely processing, dispatch, and delivery of Standard
                                    Mail to meet established service standards. Specifically, the
                                    purpose of color-coding is to sequence the mail to ensure
                                    first in, first out (FIFO) processing.

                                    Postal policy requires all Standard Mail, regardless of where
                                    the Postal Service receives it, to be coded with a color tag.
                                    This tag represents the targeted day for clearing the mail
                                    from operations or delivering it. The picture below is a
                                    sample of a color-code tag used at the Portland P&DC.




                                    The tag clearly indicates the “blue” color designation.
                                    Additionally, it provides space for entering the class of mail
                                    and the time and date received.

                                    The color-code applied depends on the mail’s arrival time
                                    at the facility relative to the facility’s critical entry time
                                    (CET) for Standard Mail.2 Postal Operations Manual (POM)
                                    Section 458 sets forth the National Color Code Policy.




2
    CET is the latest time mail can enter an operation if it is to complete processing by the planned clearance time.



                                                             2
Color-Coding of Standard Mail at the Portland, Oregon,                                                  NO-MA-06-003
 Processing and Distribution Center



                                 For P&DCs, all outgoing, area distribution center (ADC),3
                                 sectional center facility (SCF),4 incoming primary, and
                                 carrier route mail must be color-coded to indicate scheduled
                                 clearance 1 day after receipt at the facility as indicated in the
                                 matrix below.

                                                          1-Day Clearance Matrix

                                         Receipt Day                Color Code            Clearance Day
                                          Saturday                    White                   Sunday
                                           Sunday                      Blue                  Monday
                                           Monday                    Orange                  Tuesday
                                          Tuesday                     Green                Wednesday
                                         Wednesday                    Violet                 Thursday
                                          Thursday                    Yellow                  Friday
                                           Friday                      Pink                  Saturday

                                 After the facility completes processing within the plant, it
                                 removes the clearance day color-code prior to dispatch.

                                 Some Standard Mail receives additional processing at the
                                 ADC or SCF. This mail receives a 2-day color code based
                                 on arrival time or its identification and extraction during the
                                 initial distribution operation, as shown in the matrix below.

                                                           2-Day Delivery Matrix

                                          Arrival or
                                                                     Color Code            Delivery Day
                                        Extraction Day
                                         Saturday and
                                                                       Orange                 Tuesday
                                            Sunday
                                           Monday                       Green               Wednesday
                                           Tuesday                      Violet               Thursday
                                          Wednesday                     Yellow                Friday
                                           Thursday                      Pink                Saturday
                                            Friday                       Blue                Monday

                                 The delivery day color-code remains on the mail through
                                 delivery.


3
  An ADC is a postal facility that receives, processes, and distributes mail destined for specific ZIP Code areas under
the Management Mail Program.
4
  An SCF is a postal facility that serves as a distribution and processing center for post offices in designated
geographic areas as defined by the first three digits of the ZIP Code of those offices.



                                                           3
Color-Coding of Standard Mail at the Portland, Oregon,                                 NO-MA-06-003
 Processing and Distribution Center



                                 Postal Service policy requires P&DC facility managers to
                                 develop local procedures to ensure employees apply and
                                 maintain the correct color-code on the mail based on its
                                 arrival time on Postal Service property. Postal Service
                                 facilities use color-coding as an indicator when determining
                                 what mail failed to meet its operating plan for the daily mail
                                 condition report.

Objective, Scope,                The primary objective was to determine whether color-
and Methodology                  coding of Standard Mail at the Portland P&DC conformed to
                                 the Postal Service’s National Color Code Policy. We also
                                 examined whether the Postal Service was in conformance
                                 with color-coding “best practices.”

                                 To determine if Standard Mail in the facility conformed to the
                                 National Color Code Policy and best practices, we:

                                     ♦ Observed about 330 containers and pallets of
                                       outgoing mail, ADC, and SCF incoming primary mail.

                                     ♦ Observed about 140 containers and pallets of
                                       Standard Mail arriving in the facility 1 hour before
                                       and after CET.5

                                     ♦ Observed employees processing about 100
                                       containers and pallets on either the small parcel
                                       bundle sorter, delivery bar code sorter, or flats sorter.

                                     ♦ Interviewed the senior plant manager, the in-plant
                                       support manager, and seven managers of distribution
                                       operations or supervisors on various tours.

                                     ♦ Reviewed the Standard Mail volume at the Portland
                                       P&DC from January 30 – February 3, 2006.

                                 We conducted this review from January through
                                 September 2006 in accordance with the President’s Council
                                 on Integrity and Efficiency, Quality Standards for
                                 Inspections. We discussed our observations and
                                 conclusions with management officials and included their
                                 comments where appropriate.


5
    CET for Standard Mail at the Portland P&DC was 1700 hours.



                                                         4
Color-Coding of Standard Mail at the Portland, Oregon,                                               NO-MA-06-003
 Processing and Distribution Center




Prior Audit Coverage We did not identify any prior audits or reviews related to the
                     objective of this review.

Color-Coding of                 We found the Portland P&DC generally color-coded
Standard Mail Was               Standard Mail according to the National Color Code Policy.6
Generally in                    Specifically, Standard Mail was:
Accordance With the
National Policy                      •   Tagged with the correct color-code on arrival.

                                     •   Prepared with an accurate and complete color tag.

                                     •   Processed with the original tag on a timely basis
                                         using FIFO.

                                The picture below shows a properly completed color-code
                                tag recording the arrival day and time as “0600” on “1-30.”




                                We noted a few instances where color-coding did not
                                conform to Postal Service policy or best practices; however,
                                we did not consider these exceptions significant. We
                                describe some of these exceptions below and list them in
                                their entirety in Appendix A.


6
 The Standard Mail volume at this facility for the 5 days of observations (January 30 – February 3, 2006) was about
4.4 million pieces and averaged about 1.3 million pieces per day.



                                                         5
Color-Coding of Standard Mail at the Portland, Oregon,                             NO-MA-06-003
 Processing and Distribution Center



                                  •   We observed six pallets and containers of mail that
                                      had no evidence of color-coding. (See picture
                                      below.) When mail is not color-coded, the Postal
                                      Service cannot ensure the timely process, dispatch,
                                      and delivery of Standard Mail. Additionally,
                                      management cannot readily track service standards
                                      to ensure compliance.




                                  •   We observed 25 pallets that had the color-code
                                      information written on the plastic shrink-wrap
                                      surrounding the pallet rather than on a color-code tag.
                                      (See picture below.) Although policy does not
                                      prohibit writing on the shrink-wrap, a better method
                                      would be to use placards and color code tags. By
                                      using these methods, the Postal Service would have
                                      increased assurance in maintaining the integrity of
                                      the color code process.




                                                     6
Color-Coding of Standard Mail at the Portland, Oregon,                                                    NO-MA-06-003
 Processing and Distribution Center




                                        •    We also observed 70 pallets and containers that
                                             employees had tagged with colored slips of paper
                                             rather than the facility’s color-code tag. (See picture
                                             below.) While the slips of paper reflected the correct
                                             color, the tag did not reflect the date and time the
                                             mail arrived.7 We recognize the policy does not
                                             specifically require application of the date and time to
                                             the color-code tag, this practice would assist mail
                                             handlers in ensuring mail is worked on a FIFO basis.




7
    In this example, a green slip of paper with an “S” (designating Standard Mail) served as the color-coding.



                                                             7
Color-Coding of Standard Mail at the Portland, Oregon,                                    NO-MA-06-003
 Processing and Distribution Center




                                        •    Similarly, we observed 12 pallets that had incomplete
                                             color-code tags. As shown in the picture below, the
                                             entry on the color-code tags for time and date
                                             identified only which tour completed the tag and did
                                             not identify the time and date the mail arrived.8
                                             Again, while not required by policy, applying the time
                                             and date upon mail arrival would ensure the
                                             processing of the oldest mail first.




8
    In this example, “T-2” indicates the color code was applied during Tour 2.



                                                             8
Color-Coding of Standard Mail at the Portland, Oregon,                                    NO-MA-06-003
 Processing and Distribution Center




                                    POM 458.1a, 1b, and 2a require facilities to (a) code all
                                    Standard Mail with the color representing the day mail is
                                    scheduled to be delivered or cleared from operations and
                                    (b) select the color-code based on the mail’s arrival time
                                    relative to the facility’s critical entry time.9 POM 458.321a
                                    requires P&DC facilities to develop local procedures to
                                    ensure they maintain the correct color-code for all mail
                                    based on when it arrives on the premises.10 According to
                                    headquarters’ operations specialists who review color-
                                    coding in the field, color-code tags adopted by a facility
                                    constitute a local procedure employees must follow.




9
    The daily color code changes at the CET.
10
     Arrival refers to the day and time the mail arrives on Postal Service property.



                                                              9
Color-Coding of Standard Mail at the Portland, Oregon,                           NO-MA-06-003
 Processing and Distribution Center



                              Portland P&DC managers told us the exceptions noted were
                              mostly the result of employee inattention and haste to meet
                              CETs. They also cited inadequate supervisory follow-up
                              and training for newer supervisors. Portland P&DC
                              managers said they recently experienced a large turnover
                              among supervisors.

                              We did not observe any delayed mail, excessive plan
                              failures, or negative impacts to service. However, when
                              employees do not include the date and time of arrival on the
                              color-code tag, the Postal Service cannot determine whether
                              mail processing was completed in accordance with the FIFO
                              method. In addition, when an operation does not meet its
                              clearance time and the date and arrival time are not written
                              on the color-code tag, facility managers cannot determine
                              what role the mail’s arrival time played.

Recommendations               We recommend the Senior Plant Manager, Portland,
                              Oregon, Processing and Distribution Center:

                                  1. Ensure that employees conform to Postal Service
                                     policy and that supervisors are engaged in
                                     overseeing the proper color-coding of Standard Mail.

                                  2. Provide additional training to new supervisors on
                                     color-coding practices.

                                  3. Consider using placards and color-code tags instead
                                     of writing on shrink-wrap, and applying the date and
                                     time on color-code tags, as applicable.

Management’s                  Management agreed with the recommendations and has
Comments                      already begun implementation. Management stated that
                              upon Western Area approval of best practices regarding date
                              and time stamping on color-code tags, they will adopt these
                              practices locally. Additionally, management committed to
                              complete training by the end of January 2007.

Evaluation of                 Management’s comments are responsive to the
Management’s                  recommendation. Management’s actions taken or planned
Comments                      should correct the issues identified in the finding.




                                                    10
Color-Coding of Standard Mail at the Portland, Oregon,                            NO-MA-06-003
 Processing and Distribution Center




                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions or
                              need additional information, please contact Robert J. Batta,
                              Director, Network Operations — Processing, or me at
                              (703) 248-2300.


                                E-Signed by Colleen McAntee
                               ERIFY authenticity with ApproveI



                              Colleen A. McAntee
                              Deputy Assistant Inspector General
                               for Core Operations

                              Attachments

                              cc: Patrick R. Donahoe
                                  William P. Galligan, Jr.
                                  Anthony M. Pajunas
                                  Sylvester Black
                                  David E. Williams
                                  Dallas W. Keck
                                  Steven R. Phelps




                                                    11
Color-Coding of Standard Mail at the Portland, Oregon,                                             NO-MA-06-003
 Processing and Distribution Center



                                 APPENDIX A
                     SUMMARY OF COLOR-CODE OBSERVATIONS


 Action Tested            Criteria            What Was Found                      Exceptions                    Impact
 Did employees         POM 458.1a         Observations during all           We found six pallets           Minimal
 color-code                               three tours for the period        and containers that
 Standard Mail                            January 30 - February 2,          were not color-coded.
 on its arrival at                        2006, revealed the
 the Portland                             Portland P&DC generally
 P&DC?                                    color-coded Standard Mail
                                          as it arrived.

 Did employees         Best               Observations during all           We found:
 apply complete        Practice11         three tours for the period
 and accurate                             January 30 - February 2,          (1) 12 pallets and             Minimal
 color-codes?                             2006, revealed that               containers had
                                          employees did not always          incomplete color-code
                                          write the mail’s arrival          tags. The tags did not
                                          date and time on the              have the mail’s arrival
                                          color-code tag.                   date and time; only
                                                                            which tour color-coded
                                                                            the mail.

                                                                            (2) 95 pallets and             Minimal
                                                                            containers did not have
                                                                            appropriate color-code
                                                                            tags attached; instead,
                                                                            70 had colored slips of
                                                                            “sticky” paper without
                                                                            the mail’s arrival date
                                                                            and time, and 25 had
                                                                            the color-code written
                                                                            on the shrink-wrap
                                                                            without the mail’s
                                                                            arrival date and time.

 Was the mail          POM                From observations of              We found seven trays           None
 moved on a            458.321b           MDOs performing mail              of 2-day old mail, which
 timely basis                             counts at 1700 and 0500           employees immediately
 using the FIFO                           hours, we concluded that          moved for processing
 method?                                  little mail was more than         upon discovery.
                                          1-day old and employees
                                          were using the FIFO
                                          method.

11
  Network Operations Management Service Review of the processing facilities in the North Florida Jacksonville
District dated January 2006. Best practices regarding color-coding discussed on pages 14, 35, and 58.



                                                        12
Color-Coding of Standard Mail at the Portland, Oregon,                               NO-MA-06-003
 Processing and Distribution Center




 Action Tested             Criteria              What Was Found                Exceptions       Impact
 Was the             POM 321b & the         We observed personnel            None             None
 Portland P&DC       Portland P&DC          unloading in-bound trailers
 applying the        Operating Plan,        both before and after the
 correct color to    Section 9 –            facility's CET (1700).
 mail upon           In-Plant               Employees coded all
 arrival?            Operating              inbound mail with the correct
                     Parameters             color.

 Were color-         POM                    We observed the color-           None             None
 codes changed       458.321h(1)(2)         coding of mail on all tours
 after original                             and found no evidence of
 application?                               color codes being changed
                                            after original application. We
                                            reviewed the mail counts
                                            and the daily mail condition
                                            reports and confirmed the
                                            Portland P&DC reported
                                            plan failures daily. Local
                                            management said when they
                                            found containers without
                                            color codes, they
                                            immediately color-coded that
                                            mail with the same color
                                            code as the oldest mail on
                                            hand. We also observed this
                                            first-hand.


Legend:

        FIF0 – First In, First Out
        MDO – Manager of Distribution Operations
        P&DC – Processing and Distribution Center
        POM – Postal Operations Manual




                                                    13
Color-Coding of Standard Mail at the Portland, Oregon,    NO-MA-06-003
 Processing and Distribution Center



                    APPENDIX B. MANAGEMENT’S COMMENTS12




12
     Management’s comments exclude enclosures.



                                                    14
Color-Coding of Standard Mail at the Portland, Oregon,   NO-MA-06-003
 Processing and Distribution Center




                                                    15
Color-Coding of Standard Mail at the Portland, Oregon,   NO-MA-06-003
 Processing and Distribution Center




                                                    16
Color-Coding of Standard Mail at the Portland, Oregon,   NO-MA-06-003
 Processing and Distribution Center




                                                    17
Color-Coding of Standard Mail at the Portland, Oregon,   NO-MA-06-003
 Processing and Distribution Center




                                                    18
Color-Coding of Standard Mail at the Portland, Oregon,   NO-MA-06-003
 Processing and Distribution Center




                                                    19
Color-Coding of Standard Mail at the Portland, Oregon,   NO-MA-06-003
 Processing and Distribution Center




                                                    20
